   Audit of the Quality of Results Reported

  in                     Results Review and

Resource Request (R4) Report Prepared in 1997



             Report No. 4-613-99-002-P

                November




  REGIONAL                 GENERAL/PRETORIA

                                                               memorandum

Regional Inspector General
        Pretoria




       DATE:	                November

       TO    �
                             USAID/Zimbabwe Director, Ros

       FROM:                 RIG/Pretoria, Joseph Farinella

       SUBJECT:	 Audit of the Quality of Results Reported in USAID/Zimbabwe’s Results
                 Review and Resource Request (R4) Report Prepared in 1997
                 (Report No. 4-6 13-99-002-P)

       This memorandum is our report on the subject audit. We have considered your comments
       on the draft report and have made changes as appropriate. Your comments are included in
       their entirety in Appendix II.

       This report contains one recommendation. Based on your comments, we believe that a
       management decision has been reached on the recommendation. Please advise the Office
       of Management Planning and Innovation            in Washington when        action is
       complete.

       We appreciate the cooperation and courtesy extended by your staff during the audit.

       Background

       Passage of the Government Performance and Results Act of 1993 (Results Act), among other
       things, was intended to improve the effectiveness of federal programs and public
       accountability by promoting a new focus on results. The U.S. General Accounting Office
       (GAO) noted that key steps in building a successful results-oriented organization include
       collecting and using performance information in making decisions. Congress also
       recognized in the Results Act that federal managers need performance information to
       facilitate decision-making leading to programs that meet intended goals. GAO also noted
       that successful implementation of the Results Act is dependent on good information for
       making decisions. In this regard, we adopted five characteristics of what we believe is good
       management information: objectively verifiable, supported, accurate, complete, and
       validated.
     Since          was established in 1961, it has initiated several systems to report on program
     results, none of which have been fully successful. In three audit reports issued since June
     1995, the Office of Inspector General (OIG) has               weaknesses in             ability
     to measure and report reliable program performance information. Examples of such findings
     are provided below.

                 �   A June 1995 report concluded that             needed better direction and control
                     procedures to ensure that (1) objectively verifiable and measurable indicators are
                     established to measure program performance, and (2) reliable and useful
                     performance data are reported and documented.

                 �    A March 1998 report on              fiscal year 1996 financial statements
                     identified that 29 of the 38 (76 percent) quantified results reported in the
                     program performance area of the overview section were either incorrect, or
                     vaguely set forth, or unsupported.

                 �   Another audit report issued in March 1998 found that 10 of 11 overseas missions
                     reviewed had not developed or finalized an ongoing system of data collection
                     and verification to report accurate and reliable performance data.

     In light of the above problems, the OIG was concerned that these conditions may be
     pervasive throughout           and therefore decided to do a              audit. The purpose
     was to establish a baseline for future audit work, identify problems with current data
     reporting, and develop recommendations to improve such reporting. The audit was not
     intended to assess the quality of the performance indicators (subject to a future audit), but
     rather to determine if the performance results reported in the     by operating units were
     objectively verifiable, supported, accurate, complete, and validated. This audit of
     USAID/Zimbabwe is one of 18 being done on a                    basis.

     USAID/Zimbabwe is scheduled to graduate from U.S. development assistance in fiscal year
     2003 and has been designated a Limited Assistance Mission in                     Overseas
     Restructuring Plan. Consequently, in preparing its Country Strategic Plan for fiscal years
     1997 through 2003, the Mission has carefully scrutinized its program activities and
     developed transition and phase-out plans with the intent of consolidating gains while
     emphasizing sustainability.

        of September 30, 1997, the Mission reported cumulative obligations and expenditures
    totaling $408.3 million and $360.1 million, respectively, in respect of its programs.




      The three audit reports referred to in this paragraph are Audit Report No. l-000-95-006 (dated June 30,       Audit
Report No. O-000-98-00 1 (dated March 2,             and Audit Report No. 9-000-98-00 1-P (dated March 26, 1998).

                                                              2

         Audit Objective

         The Office of Regional Inspector General/Pretoria, as part of a                                               review,
         performed this audit to answer the following question:

                     Did USAID/Zimbabwe report results data in its Results Review and Resource
                     Request (R4) prepared in 1997, which were objectively verifiable, supported,
                     accurate, complete and validated?

         Appendix I describes the audit’s scope and methodology, including several scope limitations.

         Audit Findings

         Did USAID/Zimbabwe Report Results Data in its Results Review and Resource
         Request (R4) Prepared in 1997, Which Were Objectively Verifiable, Supported,
         Accurate, Complete, and Validated?

                            reported results data in it Results Review and Resource Request (R4)                                     .
         prepared in 1997 for 13 performance indicators all of which were objectively verifiable.
         However, the data reported was not always supported, accurate and validated. Appendix III
         provides a summary of the audit results.
C




         Federal laws and regulations require federal agencies to develop and implement internal
         management control systems that (1) compare actual program results against those
         anticipated; (2) provide for complete, reliable, and consistent informationwhich is prepared
         on a uniform basis; and (3) ensure that information is clearly documented and documents are
         readily available.

         For example, Office of Management and Budget Bulletin No.          requires federal agencies
         to have internal control systems to provide reasonable assurance that support for reported
         performance results are properly recorded and accounted for to permit preparation of reliable
         and complete performance information. (See Appendix IV for a further discussion of the
         relevant laws and regulations as well as related        policies and procedures.)

         For the purpose of this audit, our definitions of the five attributes tested to assess
         USAID/Zimbabwe’s R4 data are as follows:*




           To avoid duplicating the problems related to the reported results (e.g., a reported result could be both not supported and
    not accurate), we classified only one problem according to the following hierarchy: not objectively verifiable, not supported, not
    accurate and not complete. We did, however, classify results as not validated (if applicable) in addition to another problem
    because we believe that the requirement for operating units to assess the quality of data sources was a distinct function and
    potentially related to each of the type of problems included in the hierarchy.

                                                                    3
�    Objectively                   indicator has to be objective and the results have to be
     objectively verifiable. This means the indicator has no ambiguity about what is
     being measured. That is, there is general agreement over interpretation of the
     results. The indicator is both unidimensional‘ and operationally precise. To be
     unidimensional means that it measures only one phenomenon at a time.
     Operational precision means no ambiguity over what kind of data would be
     collected for an indicator.

��   Supported-This means that there is adequate documentation that supports the
     reported result. The support should be relevant, competent, and sufficient (as noted
     in the General Accounting Office’s Government Auditing Standards). For example,
     a memo of a telephone conversation, or “best guesses/estimates” would not be
     considered adequate documentation.

     Accurate-This included (1) being within plus or minus one percent (1 .O percent)
     of the actual documented results; and (2) being consistent with what was to be
     measured under the indicator, e.g., if the indicator was vaccination of children
     under 5 years of age, the result would not be consistent if the supporting documents
     showed that the result was for children under 3 years of age. The result would also
     not be considered accurate if supporting documents showed that the result was
     achieved prior to January 1, 1996. (Note: Since we only reviewed results in the
     “performance data tables” for “1996,” the result would not be considered accurate
     if supporting documents showed the result was achieved in 1992.)

     Complete-This means the result includes all data against what was anticipated to
     be measured for the indicator and is for a full year. For example, if 20 regions were
     to be measured but only 18 regions were measured, the result would not be
     complete. Also, if the results were only for a partial year (e.g., a six-month period),
     then the result would not be complete. The result would be considered complete
     only if the R4 was annotated and the reported results were based on incomplete or
     partial year data. (Note: if the R4 did not annotate such cases, the result would be
     reported as not accurate.)

      Validated-This refers to the source of the data and the reliability of that source.
     We considered the source reliable if it came from an independent source such as the
     World Bank, United Nations (U.N.), independent evaluators, or an independent
     Demographic and Health Survey. If the data came from a contractor involved with
     the program or the host country government, the data would only be considered
     from a reliable source if            or an independent entity had performed an
     assessment of the data and/or system for generating the data and found the data or
     system to be reliable. (For purposes of this audit, we are not reviewing
     determination of validity of these independent sources. We plan to test
     validation process for external information at a later time in another audit.)


                                          4
As shown in Appendix III, the audit found that results reported for all 13 performance
indicators in the Mission’s R4 prepared in 1997 were objectively verifiable. Moreover, six
indicators reported results that were supported, accurate, complete and validated. However,
the remaining seven reported performance results data that were either not supported, or not
accurate, or not validated. Examples are provided below.

         Results for four indicators were determined to be not supported by documentation
         that were relevant, competent, or sufficient. For example, in the case of the
         indicator, Number and Value of                       Loans Extended to             the
         results data reported was based on information provided over the telephone by the
         financial institutions providing loan servicing.        Moreover, documentation
         subsequently received by the Mission from those financial institutions differed from
         the R4 results data. The Mission reported that 182 loans totaling             million
         ($713,333) had been made as of September              However, subsequent reports
         received from the financial institutions showed 202 loans totaling      1.4 million
         ($760,000).

         Similarly, in case of the indicator, Total Condoms Sold or Distributed the R4
         reported a total of 50 million condoms which were estimates based on the number
         of condoms issued by the Zimbabwean Ministry of Health to various distribution
         outlets, but not on the number actually sold or distributed to end-users.

         Results data reported for three indicators were not accurate, i.e., within plus or
         minus one percent of the actual documented results. For example, in case of the
         indicator, Percent of Surveyed Population Reporting Appropriate                  of
         Risk           the R4 reported that 4 1 percent of the male and 47 percent of the
         female population surveyed had reported a perception of the risk of HIV. However,
         a review of the supporting documents furnished by the Mission showed that such
         self-assessments of the risk of acquiring HIV/AIDS were 32.8 percent for males and
         43.2 percent for females.

         Results data reported for seven indicators were not validated because neither the
         Mission nor an independent entity had performed the required assessment of the
         data to determine whether it was reliable. For example, in the case of the indicator,
         Increased Average Household Benefits Generated by Community Based Natural
         Resources Management Activity in Natural Regions IV   although the data had
        been gathered since 1990 by a non-governmental organization,                    did not
        perform an assessment to determine its reliability. Also, in the case of the indicator,
        Number and Value of Loans to         Supported by             the Mission relied on the
        loan information provided by the local financial institution and incorporated the
        data in its R4 without adequate screening and verification.
The above problems occurred because                           did not always follow
policies and procedures (Automated Directives System 200 Series) for measuring and
reporting on program performance. For example, the Mission did not always (1) maintain
adequate documentation to support reported results, and (2) assess data quality as part of the
process of establishing performance indicators and choosing data collection sources and
methods, as prescribed by ADS section E 203.55.

We discussed our findings with Mission officials, contractors and some of the development
partners. Based on their responses and our audit work, we believe that several factors
contributed to unsupported or incorrect or invalidated data being reported in the Mission’s
R4

In accordance with            directives, USAID/Zimbabwe established three strategic
objective (SO) teams comprised of Activity Officers and team members. Each SO team had
developed a performance monitoring plan defining the source, method and type of data
collection and assigning responsibility for obtaining such data.

While the above actions were in accordance with          directives, we found that the degree
of oversight exercised over data collection, screening and reporting needed improvement.
Specifically, a system of quality control that includes a critical assessment of the
appropriateness and accuracy of the performance data was needed.

Mission officials stated that because USAID/Zimbabwe is planning to phase out its activities
in fiscal year 2003, it is gradually downsizing. Over the past two years, the Mission has
reduced its staff by almost 35 percent. Consequently, its capacity to allocate adequate time
and resources to establish a comprehensive system of data collection, aggregation and
verification to ensure the accuracy and quality of the information reported in its R4 has been
affected.

Therefore, the Mission had to rely to a large extent on several external sources for its
reported results data which included contractors, local and U.S. non-governmental
organizations, host country government authorities, and financial institutions. Our review
showed that many of these organizations were not sufficiently informed on the nature and
purpose of the information required for the Mission’s R4.

For example, the head of a local financial institution which participated in a
micro-enterprise development program, stated that he was not aware of                reporting
requirements or of the reasons behind the request for the data. The same was true of another
contractor who supplied information on the Mission’s natural resource management
indicator. Also, the contractors involved in an HIV/AIDS survey which was the source of
the R4 data for another indicator, did not realize the significance of the report deadlines.




                                              6

     Moreover, we noted that no documented assessments were received by USAID/Zimbabwe
     from the Africa Bureau in Washington, evaluating the Mission’s R4 data. According to
     Mission officials, they met with the Africa Bureau and informally discussed the R4 at various
     technical review meetings. However,               guidance requires a formal approval of the
     Mission’s R4 submission by the Africa Bureau. This approval was not provided to the
     Mission.

     This omission was attributed by Mission officials to the timing of the R4 submission which
     overlapped the time frames during which USAID/Zimbabwe was preparing its Country
     Strategic Plan. The latter exercise was given greater importance and priority both by the
     Mission and the Africa Bureau and therefore may have overshadowed the R4

     Without accurate and reliable performance data, decision makers would not have adequate
     assurance whether an operating unit met, exceeded or fell short in achieving their program
     objectives and related targets.      It could also impair USAID/Zimbabwe’s and
     USAID/Washington’s ability to measure progress in achieving the Mission’s program
     objectives and use performance information in budget-allocation decisions.

     In addition, lack of complete data indicates weaknesses in USAID/Zimbabwe’s internal
     controls to permit preparation of reliable and complete program performance information,
     and impair the Mission’s ability to comply with applicable laws and regulations.

     Therefore, USAID/Zimbabwe needs to improve its R4 results reporting and ensure that
     reliable data is collected, screened, analyzed and reported to facilitate measuring program
     performance and achieving planned results.

                 Recommendation No. 1: We recommend that the Director, USAID/Zimbabwe,
                 ensure that the performance data identified in the Mission’s R4 prepared in
                 1999 are supported, accurate, complete, and validated, or disclose in the R4
                 any data limitations and their implications for assessing the measurement and
                 achievement of performance targets for each performance indicator, and a
                 time frame for resolving the problems.




        We recognize that USAID/Washington bureaus are responsible for providing support to operating units to develop
effective performance monitoring systems to report on program results and for reviewing the R4 process. For example,
policies and procedures (Automated Directives System [ADS] Sections 201          1 la and 203.3) stipulate that the Bureau for Policy
and Program Coordination should (1) ensure the adequacy of operating units’ strategic plans for measuring performance and
documenting impact and (2) provide technical leadership in developing             and operating unit performance monitoring and
evaluation systems. These policies and procedures also stipulate that the Africa Bureau should (1) provide oversight and support
to its operating units in developing their strategic plans for measuring program performance; (2) support its operating units in
achieving approved objectives, and review and report annually those units’ performance in achieving their objectives; and (3)
manage the R4 submissions for operating units under its authority. The issue of USAID/Washington support and oversight will
be addressed in another audit report which will be issued on completion of this USAID-wide audit.

                                                                 7
Management Comments and Our Evaluation

In their response to our draft audit report, USAID/Zimbabwe concurred with
Recommendation No. 1. The Mission                       need to improve its R4 reporting and
stated that this audit would facilitate improvements in its results reporting and
documentation. All future performance data would be supported, accurate, complete and
validated in a manner that takes into account the cost effectiveness of the operation. Also,
in situations where there were limitations to data reporting, the Mission would fully disclose
such limitations.

We therefore consider that a management decision has been reached on this
recommendation. The Mission should advise the Office of Management Planning and
Innovation, Bureau for Management, when final action is complete.

In addition,                    identified three practical considerations that it would need
to take into account in addressing our audit recommendation. These are: (i) cost
ramifications of obtaining complete performance data; (ii) institution building versus the
need to have independent validation; and (iii) qualitative versus quantitative results reporting.

Furthermore, the Mission provided detailed comments on our audit findings related to its R4
data reporting (as summarized in Appendix III), and described specific actions it would take
to address the problems identified by the audit.

We believe that                         comments are thoughtful and constructive and the
actions it has planned to take would result in improvements to its future R4 reporting. The
    text of the Mission’s comments is included in Appendix II.
                                                                                APPENDIX I
                                                                                  Page 1 of 2


                                 SCOPE AND

                               METHODOLOGY

            .

Scope

We audited                         internal management controls for ensuring that it reported
objectively verifiable, supported, accurate, complete and validated performance results data
in its Results Review and Resource Request (R4) report. Definitions of the above attributes
are provided on page 4. We audited only the results reported (including baseline data) for
1996 in the R4 prepared in 1997. The audit was performed in accordance with generally
accepted government auditing standards and was conducted at the Mission’s offices in
         Zimbabwe, from March 16 through April 6, 1998.

The audit included the following scope limitations:	

         We limited our work on the validity and reliability of data to the results for only (1)
         the performance indicators identified in the “performance data tables” in the R4
         (prepared in        and (2) the actual results for which such data was shown for the
         fiscal year 1996. Therefore, if no actual results for an indicator were shown, we did
         not assess the validity and reliability of the results for that indicator. We did not
         review results data reported in the narrative portions of the R4.

         We did not attempt to determine the adequacy of the relationship (e.g., cause and
         effect) between the intermediate results and the strategic objectives presented in the
         Mission’s R4.

         We did not attempt to determine if the baseline data and the results reported were
         consistent and based on comparable data.

         We did not attempt to determine the completeness of a reported result by additional
         audit steps. If the operating unit provided us documentation to support the reported
         result and asserted that the result was complete, we accepted it without performing
         any additional audit work.
                                                                                 APPENDIX I
                                                                                   Page 2 of 2


Methodology

This audit is part of a            review. The Office of Inspector General’s Performance
Audits Division in Washington, D.C. is the lead office. Operating units (such as
USAID/Zimbabwe) were selected using a random sample based on assistance from
statisticians from the Department of Defense’s Office of Inspector General.

Where problems were found, we verified to the extent practical the causes of the problems
which included interviews with Mission personnel and reviews of documentation, as deemed
necessary. Also, we obtained a written representation from cognizant Mission officials for
all essential assertions relating to the audit objective.

To avoid duplicating the problems related to the reported results (e.g., a reported result could
be both not supported and not accurate), we classified indicators results as having only one
problem according to the following hierarchy: not objectively verifiable, not supported, not
accurate, and not complete. We did, however classify results as not validated (if applicable)
in addition to another problem because we believe that the requirement for operating units
to assess the quality of data sources was a distinct function and potentially related to each of
the type of problems included in the hierarchy. We did not assess whether a result was
validated if the result was not objectively verifiable.

If the results reported for the indicators were found to be objectively verifiable, supported,
accurate, complete and validated: (a) 95 percent or more of the time, (b) 80 to 94 percent of
the time, or (c) less than 80 percent of the time, we provided a positive, qualified, or negative
answer to the audit question, respectively.
           APPENDIX II

             Page 1 of




SUBJECT:
               APPENDIX II

                 Page 2 of 5





      Barker                    4




ill




                                4
APPENDIX II

  Page 3 of 5

APPENDIX II

  Page 4 of 5

                 4




                 4




                 -




                 4
    APPENDIX II

      Page 5 of 5





-
                                                                                                              APPENDIX III

                                 Analysis of                       1996                            and Results                                         4




                                           (As reflected in its R4 prepared in


                                               Objectively   Supported?    Accurate?      Complete?       Validated?     Explanation of problems,
                                               Verifiable?                                                              if any, except for Validated
1) Average household foodgrain availability       Yes           Yes          Yes             Yes             Yes
2) Increased average household benefits
generated by community based natural
resource management activities in natural
regions IV                                        Yes           Yes           No                             No          Based on incomplete data

3) Retail market price of straight-run maize
meal in selected markets                          Yes           Yes          Yes             Yes             Yes
4) Retail market price of roller meal in
selected markets                                  Yes           Yes          Yes             Yes             Yes
5) Number of low-income housing units built
annually                                          Yes           Yes          Yes             Yes             Yes
6) Number of low cost stands built annually       Yes           Yes          Yes             Yes             Yes
7) Median price of minimum standard urban
house and          stand               �          Yes           Yes          Yes             Yes             Yes

8) Number and total value of                                                                                             Data based on telephone
guaranteed loans extended to                      Yes           No                                           No               conversations

9) Number and value of loans to                                                                                          Data based on telephone
supported by                                      Yes           No                                           No               conversations

   Total condoms sold and distributed             Yes           No                                           No          Incomplete data reported

11) Percent of population reporting condom                                                                              Reported Actual
use during most recent sex act                    Yes           Yes           No                             No           47%     20.9% men
                                                                                                                          49%     16.8% women
                                                                                                                          89%     78.8%

12) Percent of surveyed population reporting                                                                               Reported -41% male,
appropriate perception of risk of HIV             Yes           Yes           No                             No                     Actual-32.8%
                                                                                                                           male, 43.2% female

13) Number of non-traditional (not
pharmacy, not supermarket) condom                                                                                            No supporting
distribution outlets                              Yes           No                                           No          documentation available

        TOTAL “NO” ANSWERS                                       4            3                               7




              To avoid duplicating the problems related to the reported results (e.g., a reported result could be both not supported and
      not accurate), we classified indicator results as having only one problem according to the following hierarchy: not objectively
      verifiable, not supported, not accurate and not complete. We did, however, classify results as not validated (if applicable) in
      addition to another problem because we believe that the requirement for operating units to assess the quality of data sources was
      a distinct function and potentially related to each of the type of problems included in the hierarchy. We did not assess whether a
      result was validated if the result was not objectively verifiable.

             CSW stands for Commercial Sex Workers
                                                                            APPENDIX IV
                                                                               Page 1 of 3

                 Federal Laws and Regulations, and      Guidance

                    Relevant to Measuring Program Performance


There are numerous federal laws and regulations requiring             (and other federal
agencies) to develop and implement internal management controls to measure and report on
program performance. Discussed below are examples of those requirements as well as
related         policies and procedures.

Laws and Regulations

Chief Financial Officers Act of 1990 requires management internal controls which provide
for (1) complete, reliable, consistent, and timely information which is prepared on a uniform
basis and which is responsive to the financial needs of agency management; and (2) the
systemic measurement of performance.

Standards for Internal Controls in the Federal Government issued by the U.S. General
Accounting Office in 1983 require management internal controls that ensure that all
transactions and other significant events are to be clearly documented, and that the
documentation be readily available for examination.

OMB Circular No. A-123 (dated June 21,               which is the executive branch’s
implementing policy for compliance with the Federal Managers’ Financial Integrity Act of
1982, requires agencies to have management internal controls to ensure that (1) programs
achieve their intended results; and (2) reliable and timely information is obtained,
maintained, reported and used for decision making.

OMB Bulletin         (dated January 8, 1993) requires agencies to have internal control
systems to provide reasonable assurance that support for reported performance results is
recorded and accounted for to permit preparation of reliable and complete performance
information.

The Foreign Assistance Act (Section 62 1 A), as amended in 1968, requires        to develop
and implement a management system that assists in comparing actual results of programs and
projects with those anticipated when they were undertaken. The system should provide
information to          management and to the Congress that relates             resources,
expenditures, and budget projections to program objectives and results in order to assist in
evaluating program performance.          ’
                                                                             APPENDIX IV
                                                                                Page 2 of 3

         Policies and Procedures

The most recent           system, known as the Automated Directives System for Managing
for Results (ADS 200 Series), for measuring and reporting on program performance was
initiated in October 1995. This new system requires (Section 203.4.1 a) that operating units
establish performance monitoring systems to regularly collect and analyze data which will
enable them to track performance and objectively report on the progress in achieving
strategic objectives and intermediate results. The system also requires (Section 203.55,
           and E203.5.5 and          operating units to:

         establish objective performance indicators (with related baseline data and targets)
         to measure progress in achieving program objectives;

         critically assess the performance data at regular intervals to ensure that reported
         performance data are of reasonable quality and accurately reflect performance; and

         prepare an annual Results Review and Resource Request (R4) report which must
         include reliable performance information on progress in achieving its program
         objectives for the immediate past fiscal year.

TIPS No. 6, which is supplemental guidance to the ADS, defines an objective indicator as
follows:

       An objective indicator has no ambiguity about what is being measured. That
       is, there is general agreement over interpretation of the results. It is both
       unidimensional and operationally precise. To be unidimensional means that
       it measures only one phenomenon at a time.... Operational precision means
       no ambiguity over what kind of data would be collected for an indicator. For
       example, while number of successful export firms is ambiguous, something
       like number of export          experiencing an annual increase in revenues of
       at least 5 percent is operationally precise.

TIPS No. 7, “Preparing Performance Monitoring Plan,” which is also supplemental guidance
to the ADS, stipulates that each performance indicator needs a detailed definition. The
definition should be detailed enough to ensure that different people at different times, given
the task of collecting data for a given indicator, would collect identical types of data. The
definition should be precise about all technical elements of the indicator statement. For
example, the TIPS states:

       As an illustration, consider the indicator: number of small enterprises
       receiving            the private banking system. How are small enterprises
       defined-all enterprises with 20 or fewer employees, or 50 or       What
                                                                              APPENDIX IV
                                                                                 Page 3 of 3

        types of institutions are considered part of the private banking sector-credit unions,
        government-private sector joint-venture financial institutions?

ADS Section E203.5.5 also requires operating units to (1) assess data quality as part of the
process of establishing performance indicators and choosing data collection sources and
methods; (2) collect actual results data for each performance indicator on a regular basis; and
(3) reassess data quality as is necessary but at intervals of no greater than three years. These
policies and procedures also state that if data for a performance indicator are not available
or too costly to collect, the indicator may need to be changed.

In addition, ADS section           states that       will conduct an annual performance
review which will include analyzing operating units’ performance and “shall focus on the
immediate past fiscal year,” but may also review performance of prior years.

         guidance issued in January 1997 for preparing           stated that the goal of the
guidance was to generate         which ensure that USAID/Washington management has the
information needed to make results-based resource allocations among operating units and
report on             achievements. The guidance also stated that the most effective       are
those that (1) assess performance over the past year, using established indicators, baseline
data and targets; and (2) state explicitly whether and how much progress or results surpassed,
                   of expectations. The guidance stated that the results should cover actual
                  ugh fiscal year 1996.                                          *
